             Review of the
       Student Status Confirmation
           Reporting Process

                                 FINAL AUDIT REPORT




                          Audit Control Number ED-OIG/A03-70012
                                        August 1999




Our mission is to promote the efficient                   U.S. Department of Education
and effective use of taxpayer dollars                     Office of Inspector General
in support of American education                          Philadelphia, PA
                               NOTICE
Statements that management practices need improvement, as well as other
conclusions and recommendations in this report, represent the opinions of the
Office of Inspector General. Determination of corrective action to be taken
will be made by appropriate Department of Education officials. This report
may be released to members of the press and general public under the
Freedom of Information Act.
                      UNITED STATES DEPARTMENT OF EDUCATION
                               OFFICE OF INSPECTOR GENERAL
                                    The Wanamaker Building
                                 100 Penn Square East, Suite 502
                                   PHILADELPHIA, PA 19107

                                            August 9, 1999


MEMORANDUM

TO:            Greg Woods
               Chief Operating Officer
               Office of Student Financial Assistance

FROM:          Bernard Tadley
               Regional Inspector General for Audit

SUBJECT:       FINAL REPORT
               Review of the Student Status Confirmation Reporting Process
               Control Number: ED-OIG/A03-70012


Attached is our subject report presenting our findings and recommendations resulting from our review of
the student status confirmation reporting process.

Please provide us with your final response to each recommendation within 60 days of the date of this
report, indicating what corrective actions you have taken or planned, and related milestone dates.

In accordance with Office of Management and Budget Circular A-50, we will keep this audit report on
the OIG list of unresolved audits until all open issues have been resolved. Any reports unresolved after
180 days from the date of issuance will be shown as overdue in the OIG=s Semiannual Report to
Congress.

Please provide the Supervisor, Post Audit Group, Financial Improvement, Receivable and Post Audit
Operations, Office of Chief Financial Officer and the Office of Inspector General, Planning, Analysis and
Management Services with semiannual status reports. These will include promised corrective actions
until all such actions have been completed or continued follow-up actions are unnecessary.

In accordance with the Freedom of Information Act (Public Law 90-23), reports issued by the Office of
Inspector General are available, if requested, to members of the press and general public to the extent
information therein is not subject to exemptions in the Act. Copies of this audit report have been
provided to the offices shown on the distribution list enclosed in the report.

We appreciate the cooperation given us in this review. If you have any questions or wish to discuss the
contents of this report, please contact me at (215) 656-6279. Please refer to the above audit control
number in all correspondence relating to this report.

Attachment
Review of the SSCR Process                              Final Report                                                CN ED-OIG/A03-70012




                                         TABLE OF CONTENTS

EXECUTIVE SUMMARY ................................ ................................ ................................ ............... i


REVIEW RESULTS ................................ ................................ ................................ ........................ 1


SSCR Process is Generally Working as Intended................................ ................................ .......... ... 1


Finding 1 Areas in need of Further Improvements................................ ................................ ............ 2

     Recommendations................................ ................................ ................................ ....................... 6

     Department’s Reply................................ ................................ ................................ .................... 6

     Improving Efficiency in the SSCR Process................................ ................ ................................ 7

     Recommendations................................ ................................ ................................ ....................... 9

     Department’s Reply................................ ................................ ................................ .................... 9


Finding 2 Clearinghouse Issues need Resolution................................ ................................ ............. 10

     Recommendations................................ ................................ ................................ ..................... 11

     Department’s Reply................................ ................................ ................................ .................. 11


BACKGROUND................................ ................................ ................................ ............................ 13

SCOPE AND METHODOLOGY ................................ ................................ ................................ .. 14

STATEMENT ON MANAGEMENT CONTROLS................................ ................................ ........ 15

APPENDIX: EDExpress and SSCR Guidance Differences................................ ............................. 16

EXHIBIT: Office of Student Financial Assistance Response to the Draft Report........................... 17
Review of the SSCR Process             Final Report                              CN ED-OIG/A03-70012


                             EXECUTIVE SUMMARY
The objectives of this review were to examine the effectiveness of the Office of Student Financial
Assistance (OSFA) and Federal loan participants’processes for student status confirmation reporting
and to determine the accuracy of enrollment data. Based on our review, we conclude that the student
status confirmation report (SSCR) process is generally working as intended. Nearly all schools are
submitting enrollment data to the National Student Loan Data System (NSLDS). NSLDS is
forwarding this data to the guaranty agencies, lenders and servicers, and these loan program
participants are utilizing the information to service Federal loan portfolios. We did note some data
accuracy issues, particularly the reporting of graduates.

The current electronic SSCR process was started in February 1997, and the NSLDS has continually
made changes to improve the process. During the last six months, NSLDS and the National Student
Loan Clearinghouse (a third party servicer that completes SSCRs for 2,100 schools with 70 per cent
of student enrollment) have worked together to improve the SSCR process. Most importantly, they
agreed to synchronize the schedules of Clearinghouse schools with the SSCR schedules of NSLDS.
This has resulted in more frequent submissions to NSLDS, more timely data distribution to
guarantors and servicers, and more accurate school certification dates.

To complement its ongoing initiatives, the OSFA can take specific actions to make the SSCR process
more effective and efficient. We are recommending that the OSFA:

    • Reemphasize the need for schools to provide correct enrollment data so that borrowers go into
      repayment on time, and correct graduate status so that the data can be used for analyses;
    • Determine whether guaranty agencies are complying with SSCR requirements and providing
      correct status data to lenders so that the Department does not inappropriately subsidize loans;
    • Suggest that servicers periodically determine whether their student statuses are current so that
      repayment begins on a timely basis;
    • Have NSLDS and the Clearinghouse continue to work on a solution to meet the NSLDS’30-
      day certification edit process;
    • Determine whether NSLDS audit trails need to be preserved in certain situations so that data
      is not overwritten or removed;
    • Include foreign schools in the electronic SSCR process so that those students enter repayment
      on a timely basis;
    • Assure that EDExpress and SSCR guidance agrees so that schools can more easily correct
      errors;
    • Provide the option of sending “changes only” data to Federal Family Education Loan Program
      (FFELP) participants in order to reduce processing time and costs;
    • Consider ways to better access full enrollment data so that transfer students can be tracked;
      and
    • Determine whether the National Council of Higher Education Loan Programs, Inc.
      (NCHELP) and Student Loan Servicing Alliance (SLSA) data flow model should be
      supported.




                                                      i
Review of the SSCR Process             Final Report                              CN ED-OIG/A03-70012

More than 2,100 of 6,906 schools submitting SSCRs use the Clearinghouse to meet the SSCR
requirements, but they do not pay for the service. The guaranty agencies and FFELP lenders and
servicers underwrite the Clearinghouse’s operating costs so that they can have access to the
enrollment data; however, they are concerned about potential liabilities if the data they use is
inaccurate. Since it has been suggested that NSLDS be the authoritative source of enrollment data,
the Department needs to clarify what risk program participants assume when they use Clearinghouse
data.

Since the recent amendments to the Higher Education Act require the guarantors to use their
operating funds rather than Federal reserve funds to pay for Clearinghouse services, guaranty
agencies may reassess their subsidization of the Direct Loan schools using the Clearinghouse
services. The Department needs to determine whether diminished guarantor financial support of the
Clearinghouse would impact the SSCR process. Currently, the Direct Loan servicer is not a
Clearinghouse member. The Department should evaluate whether the benefits to the Direct Loan
servicer of receiving more current enrollment updates and minimizing the handling of paper
deferment forms outweighs the cost of paying for the Clearinghouse services.

Department’s Reply
On July 16, 1999, the Department responded to our draft report and generally agreed with our 10
recommendations for Finding 1 – Areas in Need of Further Improvement and Improving Efficiency
in the SSCR Process. However, the Department disagreed with two of the three recommendations
for Finding 2 – Clearinghouse Issues Need Resolution.

For Recommendation 2.1, the Department stated that it cannot make an assertion as to suitability of
data provided by a private entity over which it has no control or contract. For Recommendation 2.2,
the Department did not agree that it needed to evaluate whether diminished guarantor financial
support would impact the SSCR process. However, the department planned to continue to
collaborate and cooperate with the Clearinghouse in the process of determining student status.

OIG’s Response
We have carefully considered the Department’s comments, but have not made any changes to the
report or the recommendations. With regard to Recommendation 2.1, we note that the Clearinghouse
member schools have over 70 % of the postsecondary enrollment. These schools provide full
enrollment status updates to the Clearinghouse, which then responds to SSCRs sent by NSLDS. That
data is received by NSLDS and distributed to guaranty agencies and servicers with minimal changes
– the same as data NSLDS receives directly from schools. Further, the Department will soon begin a
pilot project with the Clearinghouse and the Direct Loan servicer and should be able to better judge
whether the Clearinghouse data is reliable and can be used without penalty. Further, if the
Department contracts with the Clearinghouse, then it will have some control over this process.

With regard to Recommendation 2.2, we believe that the Department should not ignore the possibility
that diminished guaranty agency support of the Clearinghouse could impact the SCCR process. If the
Clearinghouse could not fully provide its service, it is our opinion that the Department should have a


                                                      ii
Review of the SSCR Process            Final Report                           CN ED-OIG/A03-70012

contingency plan to deal with that circumstance.

This report includes, after each recommendation or finding, a summary of the Department’s
comments. We have addressed areas where we disagree or where further clarification is needed. A
copy of the complete response is contained as the Exhibit.




                                                     iii
Review of the SSCR Process          Final Report                              CN ED-OIG/A03-70012




                             REVIEW RESULTS

SSCR Process is Generally        The student status confirmation report (SSCR) process is
Working as Intended              generally working as intended. Schools provide student
                                 enrollment data to the National Student Loan Data System
                                 (NSLDS) either directly or through a third party servicer, such
                                 as the National Student Loan Clearinghouse (Clearinghouse),
                                 which represents over 2,100 schools. NSLDS then provides the
                                 SSCR data to guaranty agencies and the Direct Loan servicer.
                                 The Clearinghouse provides enrollment data to its members
                                 (guarantors, lenders and servicers) as well. In turn, guaranty
                                 agencies provide the enrollment information to lenders and
                                 servicers. Based on our visits to schools, guaranty agencies,
                                 and servicers, the data usually is being passed on in an
                                 expeditious manner, with the guarantors, lenders, and servicers
                                 using the enrollment information to perform due diligence tasks
                                 associated with federal loans.

Recent Improvements Made         Issues we noted during our fieldwork prompted some of the
                                 recent improvements. NSLDS officials acted promptly and
                                 corrected the process as quickly as possible. These items
                                 included FFELP students not being included on schools’SSCR
                                 rosters, problems with certification dates at the Clearinghouse,
                                 and changes to the SSCR guidance. Other improvements are
                                 also planned, including the implementation of a quality control
                                 and improvement process for schools.

Synchronization Makes the SSCR   During the last 6 months in particular, the Clearinghouse and
Process More Efficient and       NSLDS have worked together to better the SSCR process.
Accurate                         Most importantly, they agreed to synchronize the SSCR
                                 schedules of NSLDS with the submission schedules of
                                 Clearinghouse schools. This agreement resulted in a joint letter
                                 signed by both NSLDS and the Clearinghouse officials and sent
                                 to Clearinghouse members.

                                 To implement this new process, NSLDS modified SSCR
                                 submission schedules so the SSCRs would be created each
                                 month after a school submitted enrollment data to the
                                 Clearinghouse. The Clearinghouse allowed the schools to set
                                 their own schedule, so this was not an issue for them.
                                 Previously, a school could submit data to NSLDS only once
                                 every other month. Now, NSLDS can create SSCRs once per
                                 month. According to NSLDS officials, 30 schools now report


                                                   1
Review of the SSCR Process                    Final Report                                    CN ED-OIG/A03-70012

                                           enrollment data 12 times a year. These changes have resulted in
                                           more frequent submissions to NSLDS and more timely
                                           distribution of enrollment data to guarantors and servicers.

More FFELP Students Now                    At one time, if guaranty agencies submitted conflicting
Included on School’s SSCR Roster           enrollment data, NSLDS procedures allowed the loan
                                           information, but not the enrollment information, to be placed
                                           into NSLDS. Consequently, students would not be included on
                                           SSCR rosters. Now, NSLDS will use the enrollment status with
                                           the latest effective date to allow the student borrower to be
                                           included on the next SSCR for that school. If the data is
                                           correct, the school will confirm this. If it is not accurate, the
                                           school should report the correct data back.

Improvements in Process                    NSLDS officials provided the following examples of how it is
                                           upgrading its system. One pilot project would have NSLDS
                                           send – probably using the Common Account Maintenance
                                           (CAM) format – enrollment data directly to the lenders and
                                           servicers to expedite the data transference process. (See page 7
                                           for a further discussion of CAM.) NSLDS is also working on
                                           including the source code in its system. That will allow users to
                                           determine the data’s origin and thus expedite the resolution of
                                           conflicting data problems. Under Phase II of implementation,
                                           NSLDS is issuing a task order that will result in the creation of
                                           SSCR performance measures. For quality control purposes,
                                           schools will then be able to compare themselves against their
                                           peers in categories such as timeliness and accuracy. NSLDS
                                           and the FFELP participants also developed and recently issued
                                           community based edits for the SSCR process.



Finding 1                                  Although the SSCR process is continually evolving and being
                                           refined, further enhancements can be made. The following
Areas in Need of Further                   sections detail areas in need of further improvement and areas
Improvements                               where efficiencies might be realized.

Schools Need to Provide Accurate           Schools continue to provide incorrect data. At one school we
Data                                       visited, the school reported those students who did not register
                                           for the next regular term as withdrawn, effective the first day of
                                           the new term, rather than the last day of the term they attended.
                                           Over the course of a year, this meant that more than 4,000
                                           borrowers might have entered repayment late – with the
                                           Department paying interest on the loans for the additional time.1

1
    On November 23, 1998, the OIG issued Action Memorandum 99-03, which described the specifics of this situation.



                                                             2
Review of the SSCR Process      Final Report                              CN ED-OIG/A03-70012

                             The Department must continue to stress the necessity of
                             reporting correct withdrawal dates.

                             This same school and many others are not correctly reporting
                             graduates to the Department or to their third-party servicers.
                             For students who received loans during the period July 1, 1997
                             through June 30, 1998, a recent query of NSLDS data showed
                             456 schools with no students listed as graduating. Another 296
                             schools had only 1 student listed as graduating for that same
                             time period. With a total of 5,273 schools included in the
                             report, approximately 14 per cent of the schools reported 1 or
                             no students as graduating. In total, 1,209 schools reported less
                             than 5 graduates for this same time period. This represents 23
                             per cent of the schools.

                             This condition limits the usefulness of the NSLDS enrollment
                             data for any type of analysis involving completion or
                             withdrawal rates.

                             If Clearinghouse schools do not report graduates, the
                             Clearinghouse has a process that will designate the student as
                             withdrawn. In a letter to the Clearinghouse, the National
                             Council of Higher Education Loan Programs, Inc. (NCHELP)
                             emphasized that schools should report the actual withdrawal
                             date, rather than have the Clearinghouse determine the last day
                             attended. If schools do not report a withdrawal date, the
                             Clearinghouse now uses the last day of the last term for non-
                             returning students.

                             For loan servicing purposes, a student withdrawal or graduation
                             results in equal actions. But for anyone using NSLDS for
                             statistical analysis or research, the reporting of a student as
                             withdrawn or graduated could be important. Because of the
                             need for accurate reporting, the Clearinghouse has been
                             encouraging its members to correctly report graduates.
                             Currently, Clearinghouse officials estimate that the compliance
                             rate has risen to 45 per cent.

Guaranty Agencies May Need   A Guaranty and Lender Oversight Service review found that a
SSCR Oversight               guaranty agency had not sent SSCRs to non-Clearinghouse
                             schools for over one year. Further, this same agency had not
                             sent student status changes to all lenders nor tracked responses
                             from the remaining lenders. It also did not always know which
                             lenders held which loans. All of these problems resulted in
                             many instances where lenders used an anticipated graduation
                             date to start repayment, when the student had previously


                                               3
Review of the SSCR Process               Final Report                                CN ED-OIG/A03-70012

                                      withdrawn. This meant that the Department was subsidizing
                                      loans when it should not have, and servicers were capitalizing
                                      interest. We do not know whether any of these conditions exist
                                      at other guaranty agencies.

Lenders and Servicers Should          One large FFELP lender/servicer did not have a system in place
Evaluate the Status of Internal       to routinely determine whether the student statuses on its
Enrollment Data                       system were current so that borrowers go into repayment on a
                                      timely basis. From a sample of 23 students, we found 3
                                      students who had not had their statuses updated at the servicer
                                      since the original applications. The time from the original
                                      applications to the time of our review ranged from 11 to 13
                                      months. Although the servicer was not aware of it, one student
                                      had transferred to another school and taken out 2 other loans.

Thirty day Certification Edit Issue   Prior to the new synchronization process, the Clearinghouse,
Needs Resolution                      under certain circumstances, changed the school’s actual data
                                      certification date so that data would pass NSLDS edits for data
                                      being less than 30 days old. Although the new process
                                      generally eliminated the need for the Clearinghouse to change
                                      school certification dates, certain conditions still exist where the
                                      30 day certification date edit is not met by the Clearinghouse.
                                      This could delay information from reaching NSLDS.

Complete Audit Trail Should be        During our review, we noted several circumstances where the
Available for all SSCR                audit trail for an SSCR transaction was lost because the
Transactions                          transaction was overwritten or removed. For example, when an
                                      SSCR transaction for the same student at the same school is
                                      received, the new transaction certification date overwrites the
                                      previous certification date as long as the enrollment status
                                      effective date and student enrollment status remains unchanged.
                                      Also, we noted one instance where a valid individual enrollment
                                      record was removed from the student status table and a record
                                      with an invalid date was placed in the student status unresolved
                                      table as the removed records replacement. We could not
                                      determine whether the overwritten or removed information is
                                      vital and requires a NSLDS programming change to assure that
                                      an audit trail is maintained.

Foreign Schools Need to be            In response to an OIG’s Investigative Program Advisory Report
Included in the Electronic SSCR       on FFELP and Foreign Schools, the Department stated that
Process                               schools receive and respond to SSCRs via the Title IV Wide
                                      Area Network (TIVWAN). However, several guaranty agency
                                      officials indicated that they still mail SSCRs to foreign schools.
                                      Further, the Department also noted that it does not require
                                      foreign schools to use the TIVWAN or participate in the SSCR


                                                        4
Review of the SSCR Process        Final Report                               CN ED-OIG/A03-70012

                               process. The Department viewed the language barriers and lack
                               of SSN identifiers for school officials’destination points as the
                               primary problems with getting foreign schools to comply with
                               SSCR requirements. If student statuses are not routinely
                               received, students may not enter repayment on a timely basis.

                               Department officials indicated that, among the alternatives
                               considered, they might run a pilot program to require the largest
                               foreign schools to electronically provide SSCR data over the
                               Internet. They should continue with these plans. The
                               Department also stated that it was reviewing the regulatory,
                               legal, and technical provisions necessary to bring foreign
                               schools into SSCR compliance.

EDExpress and NSLDS Guidance   Schools that are not using a third party servicer are providing
Needs to Agree                 the enrollment data directly to NSLDS. Schools can use the
                               EDExpress software or school-developed programs to obtain
                               and transmit the enrollment information. All schools that use
                               EDExpress software are sent an EDExpress SSCR brochure.
                               The schools that we visited were also using the 1997-98
                               NSLDS SSCR User’s Guide.

                               Because the EDExpress and NSLDS guidance did not always
                               agree, the difference in ED’s guidance caused some difficulties.
                               One school had trouble trying to correct a recurring error -“error
                               code 32”. Clearinghouse officials also indicated that this same
                               error was causing a problem for another school. See Appendix
                               A for a more detailed description of the differences.

                               The school users looked at the EDExpress SSCR pamphlet, but
                               were unaware that error code 32 had to be corrected by using
                               the on-line process. Only when they obtained the NSLDS
                               User’s Guide were they able to determine that they needed to go
                               on-line to make corrections.

                               During our comparison of error message descriptions, we also
                               noted one other error message (code 11) with a difference. We
                               are not aware of this difference causing any issues at schools.
                               See Appendix A.




                                                 5
Review of the SSCR Process               Final Report                              CN ED-OIG/A03-70012


Recommendations

         We recommend that the Chief Operating Officer:

         1. Remind schools of the necessity of correctly reporting student enrollment data –
            particularly emphasizing the proper reporting of graduates.

         Department’s Reply: The Department agreed with this recommendation.

         2. Determine whether guaranty agencies are complying with the SSCR requirements –
            including the data passage to the correct lenders.

         Department’s Reply: The Department agreed with this recommendation.

         3. Suggest that servicers review their internal systems to determine whether statuses are
            current (e.g., within a year).

         Department’s Reply: The Department did not fully agree with this recommendation because
         it believed that any action would be duplicative of ongoing activities. See the Exhibit for the
         full text of the Department’s response.

         OIG’s Response: The implementation of the recommendation would require only that the
         Department suggest to the servicers that they internally run a program to identify those
         borrowers whose student statuses have not been updated for an extended period. The
         outcomes should assist the servicers as they perform due diligence and may reduce
         delinquencies and defaults.

         4. Have NSLDS work with the Clearinghouse to resolve the remaining issues relating to the
            30-day certification date edit requirement for accepting Clearinghouse data.

         Department’s Reply: The Department agreed with this recommendation and noted that the
         Clearinghouse and NSLDS synchronizing schedules have resolved the 30-day certification
         date issue.

         OIG’s Response: Discussions with Clearinghouse officials revealed that, while most of the
         30-day issues have been resolved by the synchronization, some problems still exist and can
         result in data not getting to NSLDS in a timely fashion.

         5. Determine whether enrollment data, which is overwritten or hidden, is vital and requires a
            NSLDS programming change to maintain an audit trail.

         Department’s Reply: The Department agreed with this recommendation.

         6. Enforce foreign schools to comply with the SSCR regulations and also require them to use
            the Internet or TIVWAN to report.



                                                        6
Review of the SSCR Process             Final Report                              CN ED-OIG/A03-70012



         Department’s Reply: The Department agreed with this recommendation.

         7. Change the next version of the EDExpress SSCR brochure so that its directions coincide
            with those provided in the SSCR User’s Guide.

         Department’s Reply: The Department agreed with this recommendation and noted it was
         already making changes in NSLDS.



Improving Efficiency                The Department provides only student status and corresponding
 in the SSCR Process                date changes (“changes only”) to the Direct Loan servicer.
                                    Although the same option could be available to the FFELP
NSLDS Should Offer SSCR             guarantors, lenders and servicers, NSLDS currently furnishes
“Changes Only” Enrollment           FFELP users all available enrollment data with each
Data to All                         submission. Since the NSLDS can provide “changes only”
                                    enrollment data, it needs to develop an implementation plan as
                                    an option for FFELP participants, as it does for Direct Loan.

                                    Before last year, the Direct Loan service was receiving all
                                    enrollment data as well. But for various reasons including cost,
                                    NSLDS and the Direct Loan service agreed to have NSLDS
                                    send only changed data. This reduced the volume of
                                    transactions sent to the Direct Loan servicer and reduced the
                                    processing time and costs as well. Based on the positive
                                    experience of the Direct Loan servicer, this process would
                                    reduce the number of transactions needing to be processed at
                                    the guaranty agencies, lenders, and loan servicers.
                                    NSLDS had discussed, with the FFELP community, the option
                                    of using the “changes only” process, but this has not yet
                                    occurred. NCHELP and its members have been developing
                                    Common Account Maintenance (CAM) to facilitate
                                    standardized exchanges of loan data. Based upon discussions
                                    with NCHELP members and NSLDS, the CAM format might
                                    provide the best option by which the “changes only” data could
                                    be exchanged. The final version of CAM documentation was
                                    released in March 1999, but implementation and use is still
                                    some time away.




                                                      7
Review of the SSCR Process           Final Report                               CN ED-OIG/A03-70012

Full Enrollment Data Provides     The Clearinghouse receives enrollment data on all students
Greater Tracking Capability       attending member schools – regardless of whether they receive
                                  federal financial aid. However, the Clearinghouse transmits an
                                  enrollment status to NSLDS only if a student appears on a
                                  specific school’s SSCR. Restricting the NSLDS request to a
                                  specific school limits whether you will receive data on that
                                  particular student.

                                  For its members, the Clearinghouse matches the full enrollment
                                  data with their loan portfolios– irrespective of an SSCR
                                  requirement. This practice facilitates the tracking of those
                                  students who transfer to another school – especially if they do
                                  not receive additional federal loans. The Clearinghouse
                                  members include all guaranty agencies, and certain large
                                  student loan servicers and lenders.

                                  We believe that a process should be established where NSLDS
                                  periodically requests enrollment data from the Clearinghouse
                                  without limiting the request by attendance at a particular school.
                                  Details of how this would occur and if and how the
                                  Clearinghouse would be compensated would need to be
                                  negotiated. This would help assure that NSLDS has the most
                                  current enrollment data for all of the students in NSLDS. An
                                  alternative might be for NSLDS to request schools to
                                  voluntarily provide full enrollment data to NSLDS. However,
                                  the privacy issue might make schools reluctant to release data
                                  on students not receiving Title IV funds.

NCHELP and SLSA Offer a Data      NCHELP and SLSA, associations representing organizations
Flow Model for the SSCR Process   participating in the FFELP have been involved in the discussion
                                  of the SSCR process. NCHELP’s Common Manual: Unified
                                  Student Loan Policy outlines the SSCR process and the roles of
                                  the varied participants. NCHELP also has written letters to its
                                  members, the Clearinghouse, and the Department. In their
                                  December 4, 1998 letter to the Department’s Chief of Staff,
                                  NCHELP and SLSA brought forth a proposal to improve the
                                  SSCR process. According to the letter, the proposed data flow
                                  model is designed to make enrollment data more timely and
                                  accurate by eliminating duplicate processing and thus reducing
                                  the associated costs. The model also provides guarantors,
                                  lenders, and servicers with a choice from whom they would
                                  receive SSCR data. The Department has not yet replied to the
                                  letter.




                                                    8
Review of the SSCR Process              Final Report                              CN ED-OIG/A03-70012


Recommendations

         We recommend that the Chief Operating Officer:

         8. Provide the option of allowing guaranty agencies, lenders and servicers to receive
            “changes only” data.

         Department’s Reply: The Department agreed with this recommendation.

         9. Pursue the options of accessing full enrollment data.

         Department’s Reply: The Department agreed with this recommendation.

         10. Determine whether the proposed NCHELP and SLSA data flow model should be
             supported by NSLDS.

         Department’s Reply: The Department agreed with this recommendation.




                                                       9
Review of the SSCR Process       Final Report                              CN ED-OIG/A03-70012



 Finding 2                   The National Student Loan Clearinghouse (Clearinghouse)
                             provides NSLDS with SSCR enrollment data for over 2,100
Clearinghouse Issues         schools, representing about 70 % of student enrollment, of the
need Resolution              6,906 schools reporting. The data exchange system has worked,
                             but some issues need to be addressed.

Schools Benefit from         Based upon discussions with schools and guaranty agency
Clearinghouse Services       officials, schools like the Clearinghouse services. Whether they
                             participate in the Federal Family Education Loan Programs
                             (FFELP) or Direct Loan program, schools do not pay for
                             Clearinghouse services. Because they only have to provide data
                             dumps to the Clearinghouse, schools also have been able to free
                             up resources previously involved with the SSCR process.

                             The guaranty agencies, lenders and servicers pay for the
                             enrollment update services on the basis of the number of matches
                             made with their portfolios. As of December 1, 1998, payment
                             was based upon the number of matches per month times a fixed
                             fee ($.05) for each half or full time federal loan borrower and/or
                             student for whom a federal PLUS loan had been made. Because
                             most of its revenues come from these matches, the
                             Clearinghouse’s latest financial statement indicated in the notes
                             that, if the Department insisted that enrollment data used by
                             guarantors and lenders/servicers had to come from NSLDS, the
                             Clearinghouse may lose its client base. At that time, the auditors
                             did not know what the potential impact might be. The guaranty
                             agencies, lenders and servicers had expressed concern about
                             potential liabilities if the data they use is inaccurate.

                             The financial report statement apparently was a response to a
                             proposed NSLDS discussion paper suggesting that FFELP
                             participants would be held harmless if they used NSLDS data.
                             This proposal would be similar to the current practice of schools
                             being held harmless if they use NSLDS data for financial aid
                             decisions. Conversely, this might mean that using enrollment
                             data from the Clearinghouse could possibly result in a liability.

Reassessment of Guarantor    Based on discussions with NCHELP and guaranty agency
Financing is a Possibility   officials, FFELP guarantors presently believe they are receiving
                             fair value for Clearinghouse services, although they are paying for
                             Direct Loan school participation. In the near term, the guarantors
                             are likely to continue to support the Clearinghouse since schools
                             like the services. However, that could change because the recent
                             amendments to the Higher Education Act require the guarantors
                             to use their operating funds, not their Federal reserve funds, to


                                                10
Review of the SSCR Process                Final Report                              CN ED-OIG/A03-70012

                                     pay for services. This could result in guaranty agencies
                                     reassessing their subsidization of the Direct Loan schools who are
                                     Clearinghouse members.

Direct Loan Servicer is not a        Currently, the Direct Loan servicer is not a Clearinghouse
Clearinghouse Member                 member. According to a Direct Loan official, the servicer is
                                     satisfied with the expediency of the weekly NSLDS data feeds. If
                                     it were a Clearinghouse member, the Direct Loan servicer also
                                     would receive weekly enrollment updates, which could be used to
                                     electronically process deferments. Clearinghouse data sent to
                                     servicers could be more current since the relaying of enrollment
                                     data to NSLDS is predicated upon SSCR schedules. Presently,
                                     the Clearinghouse provides only paper deferments, which are
                                     more costly to process than the electronic deferments, to the
                                     Direct Loan servicer. If delays in processing data and/or
                                     deferments lead to unwarranted delinquencies, the Department is
                                     penalized because the servicer is paid more for servicing
                                     delinquent accounts.


Recommendations
         We recommend that the Chief Operating Officer:

                 1. Clarify the issue of whether Clearinghouse transmitted enrollment data can be used
                    by FFELP participants without penalty.

                 Department’s Reply: The Department did not agree with this recommendation. The
                 Department stated that it cannot make an assertion as to suitability of data provided by
                 a private entity over which it has no control or contract.

                 OIG’s Response: The Clearinghouse member schools have over 70 % of the
                 postsecondary enrollment. These schools provide full enrollment status updates to the
                 Clearinghouse, which then responds to SSCRs sent by NSLDS. That data is received
                 by NSLDS and distributed to guaranty agencies and servicers with minimal changes –
                 the same as the data NSLDS receives directly from schools. With the Department
                 beginning a pilot project with the Clearinghouse and the Direct Loan servicer, it
                 should be able to better judge whether the Clearinghouse data is reliable and can be
                 used without penalty. Further, if the Department contracts with the Clearinghouse,
                 then it will have some control over this process.

                 2. Determine whether diminished guarantor financial support of the Clearinghouse
                    would impact the SSCR process and what actions might need to be taken.

                 Department’s Reply: The Department did not agree that it needed to evaluate



                                                         11
Review of the SSCR Process                Final Report                               CN ED-OIG/A03-70012

                 whether diminished guarantor financial support would impact the SSCR process.
                 However, the department planned to continue to collaborate and cooperate with the
                 Clearinghouse in the process of determining student status.

                 OIG’s Response: We believe that the Department should not ignore the possibility
                 that diminished guaranty agency support of the Clearinghouse could impact the SCCR
                 process. If the Clearinghouse could not fully provide its service, it is our opinion that
                 the Department should have a contingency plan to deal with that situation.

                 3. Evaluate whether the benefits the Direct Loan servicer would accrue from
                    receiving more current enrollment updates and minimizing the handling of paper
                    deferment forms would outweigh the cost of paying for the Clearinghouse
                    services.

                 Department’s Reply: The Department agreed that it would be beneficial to use the
                 Clearinghouse services. It will soon begin a test with the Clearinghouse to determine
                 the feasibility, expected costs, and benefits of using their services for Direct Loan
                 borrowers




                                                         12
Review of the SSCR Process                Final Report                                CN ED-OIG/A03-70012

BACKGROUND

The Higher Education Act requires the National Student Loan Data System (NSLDS) to gather
information on the enrollment status of students who received federal loans. The SSCR process is
very important because the student’s enrollment status is the basis for determining deferment
privileges and grace periods, as well as the government’s payment of interest subsidies. Initially, the
process was performed with paper SSCRs being periodically sent by guaranty agencies to schools for
updating. Now, with the NSLDS, the process is primarily done electronically. The main exception
involves foreign schools, where this process is still performed via paper SSCRs.

The Office of Student Financial Assistance now has responsibility for overseeing the accuracy and
completeness of data reported in the NSLDS. The current electronic process, which was placed into
effect in February 1997, has two phases. The first phase involves the schools and NSLDS, while the
second phase involves guaranty agencies, lenders, loan servicers and NSLDS.

The process for the first phase works as follows:

   -        Schools set SSCR submission timetables. Schools now can schedule a submission as often
            as every 30 days, but still are required to submit at least two per year. Originally, in
            February 1997, the minimum period between SSCRs was 60 days. Schools have flexibility
            in determining how often and when to report. NSLDS officials indicated that 90% of the
            schools provide at least 5 SSCRs per year.

   -        At the prescribed time, NSLDS forwards the SSCR roster file to the school. This file
            contains a record of each student that NSLDS has identified as enrolled in that school. The
            file contains information on each student including name, social security number (SSN),
            date of birth, enrollment status, enrollment status effective date, anticipated graduation
            date, student address information and other relevant data. The school has 30 days to
            review the information and update it as needed. The school then sends NSLDS a SSCR
            submittal file.

   -        When NSLDS receives this file, it performs some edits on the data. The school is then
            notified via a SSCR notification file whether all of the records are accepted. If all of the
            records are accepted, this file just includes a count of the accepted records. If all records
            are not accepted, this file includes details of the rejected records including error codes for
            each and a count of accepted and rejected records. The school has 10 days to correct the
            rejected records.

The school can perform the SSCR function or, as many schools have done, the school can have a
third party servicer perform this function for them. Although twenty-eight servicers perform SSCR
functions, the main third party SSCR servicer is the National Student Loan Clearinghouse
(Clearinghouse) - a non-profit organization that was created by an industry sponsored consortium to
simplify the enrollment verification process. The NSLDS receives most of the student enrollment
data from the Clearinghouse, which acts as the intermediary between schools, NSLDS, guaranty
agencies, lenders and loan servicers.



                                                         13
Review of the SSCR Process               Final Report                               CN ED-OIG/A03-70012

The Clearinghouse currently handles the SSCR function for over 2,100 schools, representing
approximately 70 per cent of the overall postsecondary enrollment. The school signs a contract with
the Clearinghouse, which authorizes the Clearinghouse to perform this function for the school. As the
member schools’agent, the Clearinghouse provides status and deferment information to guaranty
agencies, lenders, servicers, and NSLDS. The school does not pay the Clearinghouse for performing
the SSCR function. Instead, Clearinghouse members, who include all of the guaranty agencies and
certain of the larger lenders and loan servicers, pay for these services.

At a frequency that they determine, member schools provide the Clearinghouse with enrollment data
of all students attending. Similarly, the guaranty agencies and member lenders and servicers provide
data bases of their federal loan portfolios. The Clearinghouse matches the loan data bases against the
student enrollment data bases and reports the most current status (including withdrawal, transfer,
deferment eligible, and current) to its members. It also matches the NSLDS generated school specific
SSCR with the school data and returns the SSCR to NSLDS.

The process for the second phase works as follows:

   -        NSLDS weekly sends enrollment and other loan related data to the guaranty agencies and
            the Direct Loan Servicer.

   -        The guaranty agencies and the Direct Loan Servicer process the data and apply the
            information to their files.

   -        The guaranty agencies then are responsible for providing the updated information to the
            appropriate lenders or the loan servicers who use the information to service their Federal
            loan portfolios.

Schools were required to sign up for participation in the Title IV Wide Area Network (TIVWAN) so
that the SSCR process could be done electronically with standardized reporting procedures and
formats. At the present time, 22 schools have not signed up for the SSCR process. This is down
substantially from one year ago when 245 schools had not signed up for the SSCR process.


SCOPE AND METHODOLOGY

The objectives of this review were to examine the effectiveness of the Department’s and Federal loan
participants’processes for student status confirmation reporting and to determine whether the
enrollment data is accurate. A prior OIG report, “Administration of the William D. Ford Federal
Direct Loan Program by Schools” (Control Number 03-60009), had found that inaccurate student
status reporting hindered efficient loan servicing. Since that report was issued as NSLDS was
becoming fully involved and responsible for SSCR, this effort was meant to determine how the SSCR
process was functioning.

To achieve an understanding of the Department=s controls and processes relating to the student status
confirmation process, we interviewed NSLDS and contractor officials, reviewed related procedures,
policies, and regulations, examined available data bases, and reviewed files as necessary.


                                                        14
Review of the SSCR Process             Final Report                               CN ED-OIG/A03-70012



Our review focused on the student status confirmation process and the data going into NSLDS. We
performed fieldwork at four schools, two guaranty agencies, one large lender/servicer, and the Direct
Loan servicer during the period April through October 1998. On March 23, 1999, we discussed our
review results with the Department.

At the schools, our review of the SSCR process involved two separate samples. One sample was
obtained from the SSCR data in NSLDS. The other sample was taken from a list of students provided
by the schools. This list included students who withdrew or graduated after April 1997 .

Our review was performed in accordance with generally accepted government auditing standards
appropriate to the scope of the review described above.


STATEMENT ON MANAGEMENT CONTROLS

As part of our review, we assessed the Department’s system of management controls, policies,
procedures and practices applicable to the Student Status Confirmation Report (SSCR) process. Our
assessment was performed to determine the level of control risk for determining the nature, extent,
and timing of our substantive tests to accomplish the audit objectives.

For the purposes of this review, we evaluated the following control categories:

     • Program participants compliance with SSCR requirements,
     • Department’s written SSCR guidance to program participants, and
     • NSLDS edits and error reporting in the SSCR process.

Because of inherent limitations, a study and evaluation made for the limited purpose described above
would not necessarily disclose all material weaknesses. Our review identified areas where
improvements might be made in the SSCR process. These are fully discussed in the REVIEW
RESULTS section of this report.




                                                      15
Review of the SSCR Process                Final Report                               CN ED-OIG/A03-70012

                                                                                            APPENDIX


                             EDExpress and SSCR Guidance Differences



The February 1998 NSLDS SSCR User’s Guide has error code 32 described in the Error Messages as
follows:

         “Student status could not be applied as current due to a reporting/history violation. Use past
         Enrollment Change on-line screens.” (Our emphasis)

The 1997-98 EDExpress SSCR pamphlet had error code 32 described in the Error Codes table on
page 21 as follows:

         “Student status could not be applied as current due to a reporting/history violation.”

The difference between the two statements is the sentence, “Use past Enrollment Change on-line
screens.” This statement is in the NSLDS User’s Guide, but not in the EDExpress document.

During our comparison of error message descriptions, we also noted one other error message with a
difference. That was error message 11. The EDExpress 1997-98 SSCR Guide stated, “No detail
record matches the record identifiers (student’s SSN, student’s first name, date of student’s birth) in
NSLDS.” The NSLDS SSCR User’s Guide in the 1998 Delivery System had error code 11 described
somewhat differently than the EDExpress 1997-98 SSCR Guide.

The 1997-98 EDExpress guide also had the section for Clearing SSCR Data as the very last section -
after the SSCR Message Classes, Enrollment Status Codes, and Error Codes sections. School users
did not realize this section was in the guide until we pointed it out to them.

In June 1998, we had met and discussed these issues with the Department officials responsible for the
EDExpress guide. The new 1998-99 EDExpress SSCR desk reference has clarified the “Clearing
SSCR Data” issue. The new desk reference has a separate tab for this process and does not have this
section placed on the very last page. This should help eliminate some of the confusion




                                                         16
Review of the SSCR Process               Draft Report                                    CN 03-70012

                                                                                          EXHIBIT

                             UNITED STATES DEPARTMENT OF EDUCATION
                                  THE OFFICE OF STUDENT FINANCIAL ASSSISTANCE
                                           WASHINGTON, D.C. 20202-5132




                                                     July 16, 1999

Mr. Bernard Tadley
Regional Inspector General for Audit
The Wanamaker Building
100 Penn Square East
Philadelphia, PA 19107

Dear Mr. Tadley:

Thank you for the opportunity to review and comment on your draft audit report, Review of the
Student Status Confirmation Reporting Process. The main objectives of your review, as stated in your
report, were to examine the effectiveness of processes of the Office of Student Financial Assistance
(OSFA) and Federal loan participants for student status confirmation reporting and to determine the
accuracy of enrollment data.

We are pleased to learn that you determined the student status confirmation report (SSCR) process is
generally working as intended. However, we also realize there are ways we could improve the
process. Thus, we are in general agreement with the findings and recommendations in your report.

As you noted, National Student Loan Data System (NSLDS) staff has been working continually with
Student Loan Clearinghouse staff and others to improve the SSCR process. Examples of some recent
efforts at improving cooperation and communication are provided below:

• On several occasions, NSLDS has held up production of monthly SSCR rosters until information
  has been received and processed for Clearinghouse schools.

• Schools can go online to update individual records when it is determined that critical information
  is needed to avoid placing students into repayment prematurely.

• The Clearinghouse now submits multiple files to NSLDS with information received from their
  client schools throughout the month. This smoothes the work flow and ensures that information
  is updated on a timely basis.

• Web access to SSCR online functions will be available in late 1999.

                                       We help put America through school.




                                                      17
Review of the SSCR Process           Final Report                             CN ED-OIG/A03-70012




Page 2 – Mr. Bernard TadIey

OSFA will continue its efforts to improve the overall SSCR process. Responses to the specific
recommendations included in the draft report are provided in the enclosed Appendix. Again, we
appreciate the opportunity to review and comment on the draft report. Should you have any
questions, please contact Lynn Alexander at (202) 205-7130.

                                           Sincerely,



                                           Greg Woods
                                           Chief Operating officer

Enclosure

cc: Pat Howard
    Linda Paulsen




                                                    18
Review of the SSCR Process             Final Report                              CN ED-OIG/A03-70012



                                             APPENDIX



  Finding I

  Areas in need of Further improvement


  Response to Recommendations:

  Recommendation 1.1: Remind schools of the necessity of correctly reporting student enrollment
  data - particularly emphasizing the proper reporting of graduates.

  Response We agree with this recommendation. Since mailing the initial Dear Colleague Letter,
  GEN-96-7, dated September 1996 announcing the implementation of the SSCR process, NSLDS
  staff has continued to remind schools of the importance of reporting student enrollment data in a
  timely manner. In addition, the new community-based edits will identify students that have been
  enrolled for a long period of time without graduating. We also plan to send a message via Title IV
  Wide Area Network (TIV WAN) to remind schools of the necessity of reporting graduates.

  Recommendation 1.2: Determine whether guaranty agencies are complying with the SSCR
  requirements - including the data passage to the correct lenders.

  Response We agree with this recommendation. The Guarantor Lender and Oversight Service
  (GLPS) staff and NSLDS staff have partnered to conduct reviews, In addition, we will ask the
  Office of Inspector GENERAL (OIG) to work with us to add steps to the A-133 compliance,
  supplement to address this issue.

 Recommendation 1.3: Suggest that servicers review their internal systems to determine whether
 statuses are current (e.g., within a year).

  Response We do not agree fully with this recommendation. We do not see a need for another
  initiative as NSLDS staff is currently working with guaranty agencies, some lenders and their
  servicers to reconcile loan statuses in their portfolios. NSLDS and GLOS staff are working together
  to conduct reviews and provide assistance, as needed.

 Recommendation 1.4: Have NSLDS work with the Clearinghouse to resolve the remaining issues
relating to the 30-day certification date edit requirement for accepting Clearinghouse data.

  Response We agree and have already resolved issues relating to the 30-day certification date edit
  requirement. This is no longer a problem as NSLDS and the Clearinghouse have synchronized
  schedules. Currently, the Clearinghouse can send monthly schedule changes for its schools
  according to their business needs.




                                                      19
Review of the SSCR Process              Final Report                               CN ED-OIG/A03-70012



Recommendation 1.5: Determine whether enrollment data, which is overwritten or hidden, is vital
and requires a NSLDS a programming change to maintain an audit trail.

Response We agree with this recommendation. We are already planning to maintain history on more
enrollment data items within NSLDS than ever before.

Recommendation 1.6: Enforce foreign schools' compliance with the SSCR regulations and also
require them to use the Internet or TIV WAN to report.

Response We agree with this recommendation. Staff from TIV WAN and the Institutional
Participation and Oversight Service (IPOS) have been meeting to discuss enrollment of foreign
schools in TIV WAN in order to comply with the SSCR regulation. In the fall of 1997, there was an
electronic announcement which stated that all Title IV eligible schools will have to enroll in TIV
WAN in order to continue their participation in Title IV. However, it is difficult to impose electronic
reporting requirements and procedures on foreign institutions as each country has different privacy
requirements and technical capabilities. In recognition of the sensitivities involved in achieving
international compliance with SSCR regulations, IPOS is preparing a special letter to foreign schools
describing the reasons why enrolling in TIV WAN will benefit them, and at the same time fulfill a
legal requirement.

Recommendation 1.7: Change the next version of the EDExpress SSCR brochure so that its directions
coincide with those provided in the SSCR User's Guide.

Response We agree with this recommendation. We are already making the recommended changes in
NSLDS.

Recommendation 1.8: Provide the option of allowing guaranty agencies, lenders and servicers to
receive "changes only" data.

Response We agree with this recommendation. We are already planning such an option within
NSLDS.

Recommendation 1.9: Pursue the options of accessing full enrollment data.

Response We agree with the recommendation. We will be holding internal meetings to discuss the
approach.

Recommendation 1.10: Determine whether the proposed NCHELP and SLSA data flow model should
be supported by NSLDS.

Response We agree with this recommendation. We are in favor of the NCHELP and SLSA model
and we are currently pursuing a pilot project to determine the feasibility of an important aspect of the
model.




                                                       20
Review of the SSCR Process             Final Report                               CN ED-OIG/A03-70012



Finding 2

Clearinghouse Issues Need Resolution


Response to Recommendations:

Recommendation 2.1: Clarify the issue of whether Clearinghouse transmitted enrollment data can be
used by FFELP participants without penalty.

Response We believe our position is clear. The Department cannot make any assertion about the
suitability of data produced by a private enterprise entity over whom it does not have control and with
whom it has no contract.

Recommendation 2.2: Determine whether diminished guarantor financial support of the
Clearinghouse would impact the SSCR process and what actions might need to be taken.

Response We do not agree with this recommendation. We do not plan to do such an evaluation.
However, we do plan to continue to collaborate and cooperate with the Clearinghouse in the process
of determining enrollment status of students.

Recommendation 2.3: Evaluate whether the benefits the Direct Loan servicer would accrue from
receiving more current enrollment updates and minimizing the handling of paper deferment forms
would outweigh the cost of paying for the Clearinghouse services.

Response We agree. We have decided that it would be beneficial to use the Clearinghouse services.
We will soon begin a test with the Clearinghouse to determine the feasibility, expected costs, and
benefits of using their services for Direct Loan borrowers.




                                                      21
Review of the SSCR Process                               Final Report                                                 CN ED-OIG/A03-70012

                                           REPORT DISTRIBUTION LIST
                                        AUDIT CONTROL NO. ED-OIG/A03-70012


                                                                                                                No. of Copies

Action Official

Mr. Greg Woods ................................ ................................ ................................ .... 4
Chief Operating Officer
Office of Student Financial Assistance Programs
Regional Office Building
7th and D Streets, SW
Washington, D.C. 20202

Other ED Offices

Acting Deputy Secretary of Education................................ ................................ ... 1
Service Director, Accounting and Financial Management Service.......................... 1
Acting Service Director, Programs Systems Service................................ ............... 1
Division Director, National Student Loan Data System ................................ ......... 1
Director, Default Management Division Director................................ ................... 1
Director, Office of Public Affairs................................ ................................ ........... 1
Post Audit Group Supervisor, Office of Chief Financial Officer............................. 1

ED-OIG Officials

Inspector General................................ ................................ ................................ ... 1
Deputy Inspector General for Audit................................ ................................ ....... 1
Assistant Inspector General for Audit................................ ................................ ..... 1
Acting Assistant Inspector General for Investigation................................ .............. 1
Assistant Inspector General for Operations – Eastern Area................................ ..... 1
Counsel to Inspector General ................................ ................................ ................. 1
Area Manager, Planning, Analysis and Management Services................................ 1
Director, Advisory and Assistance, Student Financial Assistance........................... 1
Regional Inspectors General for Audit................................ ................................ ... 1
       Regions I through IX




                                                                         22
